LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

April 30, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

MIRIAM LOWELL AND SETH HEALEY V. VERMONT DEPARTMENT FOR CHILDREN
AND FAMILIES, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on April 30, 2021, I caused
service to be made pursuant to Rule 29 on the following counsel for the Respondents:
RESPONDENTS:
Benjamin D. Battles
Solicitor General
Office of the Attorney General
109 State Street
Montpelier, Vermont 05609-1001
(802) 828-5500
Benjamin.Battles@vermont.gov
This service was effected by depositing one copy of a Motion to File In Forma
Pauperis and Petition for a Writ of Certiorari in an official “first class mail” receptacle
of the United States Post Office as well as by transmitting digital copies via electronic
mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 30th day of April 2021.

